Case: 19-3328

Document: 49-1

Page: 1

Date Filed: 07/10/2020

APPENDIX A2

DLD-135

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-3328
EL AEMER EL MUJADDID,
Appellant
v.

ANDREW BREWER; JOSH ROWBOTTOM; BRIAN FERGUSON; GREGG PERR;
SUSAN GRAUBART; COREY AHART; MARION KARP; DENNIS P. MCINERNEY;
WESTAMPTON TOWNSHIP COMMITTEE
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-18-cv-14021)
District Judge: Honorable Robert B. Kugler
Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
March 5, 2020
Before: RESTREPO, PORTER, and SCIRICA, Circuit Judges
JUDGMENT

This cause came to be considered on the record from the United States District
Court for the District of New Jersey and was submitted for possible dismissal pursuant to
28 U.S.C. § 1915(e)(2)(B) and for possible summary action pursuant to Third Circuit
LAR 27.4 and I.O.P. 10.6 on March 5, 2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered October 4, 2019, be and the same hereby is affirmed. All of the above in
accordance with the opinion of this Court.

Case: 19-3328

Document: 49-1

Page: 2

Date Filed: 07/10/2020

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: April 9,2020

Certified
y |fed issued in lieu
of a forWl-riwMate^ft0 07/10/2020

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

2

Case: 19-3329

Document: 52-1

Page: 1

Date Filed: 07/10/2020

APPENDIX A3

DLD-144
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 19-3329 and 19-3463
STATE OF NEW JERSEY
v.
EL AEMER EL MUJADDID,
Appellant

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-19-cv-17596)
District Judge: Honorable Robert B. Kugler
Submitted for Possible Summary Action Pursuant to Third Circuit LAR 27.4
and I.O.P. 10.6 and Possible Dismissal due to a Jurisdictional Defect
March 20, 2020
Before: RESTREPO, PORTER and SCIRICA, Circuit Judges

JUDGMENT
This cause came to be considered on the record from the United States District
Court for the District of New Jersey and was submitted for possible summary action
pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6, and for possible dismissal due to a
jurisdictional defect on March 20, 2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered September 20, 2019, be and the same hereby is affirmed at C.A. No. 19-3329.
The appeal docketed at C.A. No. 19-3463 is dismissed for lack of appellate jurisdiction.

Case: 19-3329

Document: 52-1

Page: 2

Date Filed: 07/10/2020

All of the above in accordance with the opinion of this Court.

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: May 1, 2020

f•

CertiWdj^^
y §fid issued in lieu
>
i
ofaforldiSfa^^'
07/10/2020

U-C^CTeste:
Clerk, U.S. Court of Appeals for the Third Circuit

Case: 19-3328

Document: 48

Page: 1

Date Filed: 07/02/2020

APPENDIX A4

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3328
EL AEMER EL MUJADDID,
Appellant
v.
ANDREW BREWER; JOSH ROWBOTTOM; BRIAN FERGUSON; GREGG PERR;
SUSAN GRAUBART; COREY AHART; MARION KARP; DENNIS P. MCINERNEY;
WESTAMPTON TOWNSHIP COMMITTEE
(D.C.No. l-18-cv-14021)
SUR PETITION FOR REHEARING
Before: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS and SCIRICA,* Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
si L. Felipe Restrepo
Circuit Judge
Dated: July 2, 2020
Lmr/cc: El Aemer El Mujaddid
John C. Gillespie
* Judge Scirica’s vote is limited to panel rehearing only.

Case: 19-3329

Document: 51

Page: 1

Date Filed: 07/02/2020

APPENDIX A5

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. Nos. 19-3329 & 19-3463
STATE OF NEW JERSEY
v.

EL AEMER EL MUJADDID,
Appellant
(D.C. No. 1-19-cv-17596-001)
SUR PETITION FOR REHEARING
Before: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS and SCIRICA,* Circuit Judges
The petition for rehearing filed by appellant in the above-entitled cases having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ L. Felipe Restrepo
Circuit Judge
Dated: July 2, 2020
Lmr/cc: El Aemer El Mujaddid

* Judge Scirica’s vote is limited to panel rehearing only.

APPENDIX A6

2019 Decisions

Opinions of the United
States Court of Appeals
for the Third Circuit

1-29-2019

In Re: El Aemer El Mujaddid

Follow this and additional works at: https://digitalcommons.law.villanova.edu/thirdcircuit_2019

Recommended Citation
"In Re: El Aemer El Mujaddid" (2019). 2019 Decisions. 97.
https://digitalcommons.law.villanova.edu/thirdcircuit_2019/97

This January is brought to you for free and open access by the Opinions of the United States Court of Appeals for
the Third Circuit at Villanova University Charles Widger School of Law Digital Repository. It has been accepted for
inclusion in 2019 Decisions by an authorized administrator of Villanova University Charles Widger School of Law
Digital Repository.

Case 1:18-CV-14021-RBK-AMD Document 55-1 Filed 07/10/20 Page 1 of 6 PagelD: 1825
APPENDIX 7

NOT PRECEDENTIAL

DLD-135

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-3328

EL AEMER EL MUJADDID,
Appellant
v.
ANDREW BREWER; JOSH ROWBOTTOM; BRIAN FERGUSON; GREGG PERR;
SUSAN GRAUBART; COREY AHART; MARION KARP; DENNIS P. MCINERNEY;
WESTAMPTON TOWNSHIP COMMITTEE
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 1-18-CV-14021)
District Judge: Honorable Robert B. Kugler
Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
March 5, 2020
Before: RESTREPO, PORTER, and SCIRICA, Circuit Judges
(Opinion filed: April 9, 2020)
OPINION*
PER CURIAM

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case 1:18-cv-14021-RBK-AMD Document 55-1 Filed 07/10/20 Page 2 of 6 PagelD: 1826

After receiving a traffic citation, Appellant El Aemer El Mujaddid filed suit in
New Jersey Superior Court against the Westampton Township committee and several
Westampton Township officers, administrators, and judges. The defendants removed the
285-paragraph complaint to the United States District Court for the District of New
Jersey. After the District Court denied El Mujaddid’s motion to remand the complaint to
state court, El Mujaddid filed motions for appointment of counsel which were denied by
the Magistrate Judge. He also filed a motion to amend his complaint. After the
defendants moved to dismiss the initial removed complaint, El Mujaddid asked to
withdraw the motion to amend and moved to file another amended complaint. The
District Court dismissed the initial removed complaint as it did not comport with Federal
Rule of Civil Procedure 8(a), an issue the Court raised sua sponte.1 According to the
District Court, the complaint did not contain a “short and plain statement of the claim,”
but instead alleged “legal conclusions, devoid of requisite factual support.” El Mujaddid
v. Brewer, No. 18-14021 (D.N.J. Apr. 1, 2019). The Court provided El Mujaddid 14
days to file a motion to amend the complaint consistent with Rule 8.
El Mujaddid filed a timely motion to amend the complaint with a proposed
amended complaint. The proposed amendment repeated the same allegations that were
made in the original complaint. Although the amended complaint, like the original
complaint, is difficult to follow, El Mujaddid seems to have alleged that he was involved

1 The Order also dismissed as moot El Mujaddid’s motions for leave to file an amended
complaint, motion for preliminary injunction, and motion for sanctions, as well as the
defendants’ motion to dismiss.
2

Case 1:18-cv-14021-RBK-AMD Document 55-1 Filed 07/10/20 Page 3 of 6 PagelD: 1827

in an automobile accident with a third party not named in this suit. The named officers
filled out a police report detailing the situation, which El Mujaddid claimed was
inaccurate. Later, El Mujaddid received a traffic citation for careless driving based on the
accident. Without any justifying details, El Mujaddid stated that the officers
discriminated against him because of his ethnicity and falsified the reports. He further
claimed that the officers did not have probable cause to issue the traffic citation, that they
did not properly serve the citation, and that he was forced to appear before a municipal
court based on allegedly false charges. El Mujaddid purported to make claims under 42
U.S.C. §§ 1983, 1985, and 1986, the First, Fourth, Thirteenth, and Fourteenth
Amendments, the Civil Rights Acts of 1866 and 1875, the New Jersey Civil Rights Act,
and the Constitution of New Jersey.
The District Court, noting that the proposed amended complaint did not cure the
deficiencies addressed in the previous order, denied the motion to amend. El Mujaddid
timely appealed. In this Court, he filed a motion for leave to file an overlength motion
for summary action, a related motion for summary action, a motion for appointment of
counsel, a motion for an injunction pending appeal, and two motions to consolidate.2 For
the reasons stated below, we will affirm the judgment of the District Court.

2 In his first motion to consolidate, El Mujaddid sought to consolidate this appeal with
two other appeals from cases arising from the same traffic citation but with different
claims against different defendants. The Clerk granted the first motion in part and denied
it in part, consolidating the other two appeals, but leaving this appeal to proceed
separately. In the motion before us (for which El Mujaddid has submitted a “corrected
version”), El Mujaddid seeks to consolidate this appeal with three other appeals,
including the two already-consolidated appeals from the previous motion.
3

Case l:18-cv-14021-RBK-AMD Document 55-1 Filed 07/10/20 Page 4 of 6 PagelD: 1828

We have jurisdiction under 28 U.S.C. § 1291. We construe El Mujaddid’s pro se
allegations liberally. See Erickson v. Pardus. 551 U.S. 89, 94 (2007) (per curiam). We
may summarily affirm on any basis supported by the record if the appeal fails to present a
substantial question. See Murray v. Bledsoe. 650 F.3d 246, 247 (3d Cir. 2011) (per
curiam); 3d Cir. L.A.R. 27.4; 3d Cir. I.O.P. 10.6. We review both the District Court’s
dismissal of a complaint under Rule 8 and the denial of a motion to amend the complaint
for abuse of discretion. See In re: Westinghouse Sec. Litig.. 90 F.3d 696, 702 (3d Cir.
1996); Bechtel v. Robinson. 886 F.2d 644, 647 (3d Cir. 1989).
Rule 8(a) requires a pleading to contain “a short and plain statement of the
grounds for the court’s jurisdiction” and “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(1), (2). Each averment
must be “simple, concise, and direct.” hf at 8(d)(1). “Taken together,” Rules 8(a) and
8(d)(1) “underscore the emphasis placed on clarity and brevity by the federal pleading
rules.” In re: Westinghouse Sec. Litig.. 90 F.3d at 702 (citation omitted). A district court
may sua sponte dismiss a complaint for failure to comply with Rule 8 when the complaint
is “so confused, ambiguous, vague, or otherwise unintelligible that its true substance, if
any, is well disguised.” Simmons v. Abruzzo. 49 F.3d 83, 86 (2d Cir. 1995) (quotations
omitted).
We agree with the District Court that El Mujaddid’s original complaint was
anything but “simple, concise, and direct.” Fed. R. Civ. P. 8(d)(1). It was so excessively
voluminous and unfocused as to be unintelligible. In addition, despite the length of the
complaint and proposed amendment, El Mujaddid did not plead any facts showing that he
4

Case l:18-cv-14021-RBK-AMD Document 55-1 Filed 07/10/20 Page 5 of 6 PagelD: 1829

was entitled to relief. See id. at 8(a)(2). Though he expressed displeasure at the alleged
misinformation contained in the police report after his car accident and the traffic citation
he was issued, there does not seem to be any indication in the complaint of a viable state
or federal claim. We simply do not see any factual averments showing that the
Westampton officials were engaged in race- or nationality-based discrimination, nor do
we perceive any other constitutional violations based on the issuance of a traffic citation
for careless driving or El Mujaddid’s appearance before a municipal court. Though the
complaint is replete with legal-sounding verbiage, it contains mostly conclusory
statements with no factual bases.3 The District Court’s dismissal of the original
complaint was thus proper.
Moreover, the District Court did not abuse its discretion in denying El Mujaddid’s
motion to amend the complaint. The order denying the original complaint made clear
that El Mujaddid was required to plead a short and plain statement of the claim, more
than just legal conclusions and vague assertions. However, the proposed amended
complaint did not cure the deficiencies noted in the order. In fact, El Mujaddid sought in
his motion to amend to add three new defendants and another constitutional claim
regarding the alleged suspension of his driver’s license. The proposed amended
complaint was not significantly more “simple, concise, and direct” than the original

3 For example, as the District Court noted, El Mujaddid claimed that he was “legally
subjected to conditions of slavery,” and that the defendants “conspired to frame him for
careless driving in a conspiracy to deny him equal protection under the law because he is
a Moor,” engaged in a “Jim Crow revenue scheme to gain a... $200.00 debt,” and
“distorted the even-handed pursuit of justice,” all without factual support.
5

Case l:18-cv-14021-RBK-AMD Document 55-1 Filed 07/10/20 Page 6 of 6 PagelD: 1830

complaint. Fed. R. Civ. P. 8(d)(1). Over the course of the litigation, El Mujaddid
attempted to file three different amended complaints, none of which were drafted in
accordance with Rule 8. The District Court need not have entertained another complaint
containing only meandering and conclusory allegations.
Accordingly, because this appeal presents no substantial question, we will affirm
the judgment of the District Court.4 See 3d Cir. L.A.R. 27.4; 3d Cir. I.O.P. 10.6. El
Mujaddid’s motions for summary action,5 appointment of counsel, injunction pending
appeal, and consolidation are denied.

4

El Mujaddid also appeals the denial of his motions for appointment of counsel and
motion for reconsideration. Because El Mujaddid did not appeal those orders, issued by a
Magistrate Judge, to the District Court, he has waived his right to object to them. See 28
U.S.C. § 636(b)(1); United Steelworkers of Am., AFL-CIO v. N.J. Zinc Co., 828 F.2d
1001, 1005 (3d Cir. 1987).
5 El Mujaddid’s motion for leave to file an overlength motion for summary action is
granted.
6

APPENDIX 8

NOT PRECEDENTIAL

DLD-144

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 19-3329 and 19-3463
STATE OF NEW JERSEY
v.
EL AEMER EL MUJADDID,
Appellant

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. l-19-cv-17596)
District Judge: Honorable Robert B. Kugler
Submitted for Possible Summary Action Pursuant to Third Circuit LAR 27.4
and I.O.P. 10.6 and Possible Dismissal due to a Jurisdictional Defect
March 20, 2020
Before: RESTREPO, PORTER and SCIRICA, Circuit Judges
(Opinion filed: May 1, 2020)
OPINION*
PER CURIAM

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

On September 3,2019, appellant El Aemer El Mujaddid filed a Notice of Removal
pursuant to 28 U.S.C. § 1443(1), wherein he sought to remove to the United States
District Court for the District of New Jersey what he characterizes as a “quasi criminal”
case pending against him in the Gloucester City Municipal Court under Ticket No. El 8002499.1 Because the criminal prosecution against El Mujaddid had been dismissed in
the Gloucester City Municipal Court at the discretion of the prosecution on the same day
the removal notice was docketed, the District Court denied the petition for removal and
summarily remanded the case to the Gloucester City Municipal Court in an order entered
on September 20, 2019. El Mujaddid filed a timely notice of appeal, and that appeal has
been docketed at C.A. No. 19-3329.
El Mujaddid thereafter filed a motion in the District Court seeking leave to appeal
that court’s remand order in forma pauperis (“IFP”). However, because the IFP
application did not contain sufficiently precise information regarding El Mujaddid’s
income or assets to permit the District Court to evaluate his financial eligibility, the court
entered an order denying the IFP application without prejudice. The District Cdurt
advised El Mujaddid how to obtain a form application designed for pro se litigants that
would ensure the inclusion of sufficient information to allow the court to make the
necessary evaluation. The District Court further informed El Mujaddid that he was
permitted to reapply for IFP status using the proper form. Rather than submit the
appropriate form, El Mujaddid filed another notice of appeal. That appeal has been

The Gloucester City Municipal Court case appears to have involved a traffic citation.
2

docketed at C.A. No. 19-3463. The two appeals have been consolidated for purposes of
disposition.2
This Court may review a remand order in a case which was removed pursuant to
28 U.S.C. § 1443. See 28 U.S.C. § 1447(d). We exercise plenary review here. See
Lazorko v. Pa. Hosp.. 237 F.3d 242,247 (3d Cir. 2000). Our Clerk advised El Mujaddid
that the appeal was subject to summary action under Third Cir. LAR 27.4 and I.O.P. 10.6.
The parties were invited to submit argument in writing and El Mujaddid has done so. We
will summarily affirm the order of the District Court entered September 20, 2019,
because no substantial question is presented by this appeal. See Third Circuit LAR 27.4
and I.O.P. 10.6.
As explained by the District Court, the removal permitted by 28 U.S.C. § 1443 is
narrow. Removal under § 1443(1) is appropriate when a state court defendant “is being
deprived of rights guaranteed by a federal law ‘providing for ... equal civil rights’” and
cannot enforce those rights in state court. Davis v. Glanton. 107 F.3d 1044, 1047 (3d Cir.
1997). While El Mujaddid asserted that this case involves, inter alia, the Civil Rights Act
of 1964, he no longer had a criminal prosecution pending against him as the proceeding

2 Insofar as El Mujaddid seeks review of the Clerk’s Order granting consolidation of
these two appeals but denying his request to consolidate the appeals with C.A. No. 193328, we affirm the Clerk’s Order issued on November 18, 2019. The appeal docketed at
C.A. No. 19-3328 is from a separate District Court action dismissing a complaint filed
pursuant to, inter alia, 42 U.S.C. § 1983 against numerous defendants. See El Mujaddid
v. Brewer. D.N.J. Civ. No. 18-cv-14021. We likewise reject El Mujaddid’s contention in
his “corrected” motion that consolidation of these appeals with C.A. No. 18-3756 is
appropriate. El Mujaddid’s mandamus action docketed at C.A. No. 18-3756 related to
the civil action underlying C.A. No. 19-3328 and was disposed of back in January 2019.
3

in the Gloucester City Municipal Court had been dismissed in its entirety.3 We thus
agree with the District Court’s determination that a summary remand was appropriate.
See 28 U.S.C. § 1455(b)(4) (“If it clearly appears on the face of the notice and any
exhibits annexed thereto that removal should not be permitted, the court shall make an
order for summary remand.”).
El Mujaddid’s appeal from the District Court’s order denying his motion for leave
to proceed IFP in this proceeding will be dismissed for lack of jurisdiction. El Mujaddid
is correct in his contention that, generally, an order denying IFP status is a “final,
collateral order appealable under 28 U.S.C. § 1291.” See Abdul-Akbar v. McKelvie, 239
F.3d307,311 (3d Cir. 2001). An order denying IFP status without prejudice, on the
other hand, is not final and appealable if the order provides an opportunity to cure a
defect. Redmond v. Gill. 352 F.3d 801, 803 (3d Cir. 2003). However, we need not
comment on this distinction further in the instant case. The proper way to seek relief
from the District Court’s denial of leave to proceed IFP on appeal is to seek such leave
directly from this Court. See Fed. R. App. P. 24(a)(5). El Mujaddid has sought and
obtained such leave in C.A. No. 19-3329, so the issue is moot.
Given the foregoing, we will summarily affirm the District Court’s order at issue
in C.A. No. 19-3329 because the appeal presents no substantial issue, see Third Circuit

3 Moreover, El Mujaddid had an opportunity to litigate his complaint raising claims
under, inter alia, 42 U.S.C. §§ 1983,1985 and 1986, and the First, Fourth, Thirteenth and
Fourteenth Amendments against numerous defendants stemming from events
surrounding the same traffic citation after the case was removed to federal court. See El
Mujaddid v. Brewer, et ah. D.NJ. Civ. No. 18-cv-14021. An appeal from the District
Court’s dismissal of that action has been docketed in this Court at C.A. No. 19-3328.
4

LAR 27.4 and I.O.P. 10.6, and will dismiss the appeal at C.A. No. 19-3463 for lack of
jurisdiction. El Mujaddid’s motions for summary reversal, the appointment of counsel,
and an injunction or expedited consideration are denied.

\

5

APPENDIX 9

NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
EL AEMER EL MUJADDID,
Civil No. 18-14021 (RBK/AMD)

Plaintiff,
v.

OPINION
ANDREW BREWER, et al,
Defendants.

Kugler, United States District Judge:
This matter is before the Court on Plaintiff El Aemer El Mujaddid’s motion to remand and
relief from judgment or order. (Doc. No. 4.) For the reasons below, Plaintiffs motions are
DENIED.
I.

BACKGROUND
The Third Circuit recently summarized the relevant facts in this matter.

See In re

Mujaddid, No. 18-cv-3756, 2019 WL 360052, at *1 (3d Cir. Jan. 29,2019). As the Third Circuit
explained, PlaintifFEl Aemer El Mujaddid filed a complaint in the Superior Court of New Jersey,
Law Division, Burlington County, against numerous defendants relating to a traffic citation he
received. Id. Mujaddid alleged, among other things, causes of action under 42 U.S.C. §§ 1983,
1985, and 1986 for the deprivation of his constitutional rights. Id. It appears that Mujaddid
claimed his procedural and substantive due process rights had been violated, and that his arrest
and criminal prosecution violated federal law. Id.

1

The matter was transferred to the Law Division, Camden County, in July 2018, and an
amended complaint was filed on August 1, 2018.

Id.

Defendants Andrew Brewer, Josh

Rowbottom, Brian Ferguson, Gregg Perr, Susan Graubert, Corey Ahart, Marion Karp, and
Westampton Township (collectively, “removing Defendants”) removed the case to this Court on
September 19, 2018 based on this Court’s original jurisdiction under 28 U.S.C. §§ 1331 and
1343(a)(3). (Doc. No. 1-1.) The Notice of Removal did not mention whether Defendant Judge
Dennis Mclnemey joined in or consented to the removal. Id. The Court thus issued an Order to
Show Cause (Doc. No. 12) as to why removal was proper, and removing Defendants timely
responded. (Doc. No. 14.)
Plaintiff now opposes the removal and asks the Court to remand the case to state court.
(Doc. No. 4 (“Pl.’s Br.”).) Invoking Federal Rule of Civil Procedure 60, Plaintiff also asks this
Court to “vacate the Order setting an initial conference for 10/23/2018,” which Magistrate Judge
Donio entered on September 19, 2019. (Pl.’s Br. at 17.)
II.

DISCUSSION
“The removability of a legal matter is determined from the plaintiffs pleadings at the time

of removal.” Costa v. Verizon New Jersey, Inc., 936 F. Supp. 2d 455, 458 (D.N.J. 2013) (citing
Am. Fire & Cas. Co. v. Finn, 341 U.S. 6,14 (1951)). Under 28 U.S.C. § 1441(a), a defendant may
remove an action filed in state court to that federal court with original jurisdiction over the action.
Defendants bear the burden of showing that there is federal subject matter jurisdiction in an action
removed to federal court under 28 U.S.C. § 1441. See Samuel-Bassett v. KIA Motors Am., Inc.,
357 F.3d 392, 396 (3d Cir. 2004).
Here, Defendants properly removed this matter based on the Court’s original jurisdiction.
Despite Plaintiffs assertions to the contrary, the Complaint raises causes of action asserting that

2

Plaintiffs civil rights were violated under the United States Constitution. For example, the caption
of the removed Complaint notes that Plaintiff seeks relief under 42 U.S.C. §§ 1983, 1985, and
1986, and other portions of the document explicitly state that there have been violations of
Plaintiffs “civil rights, including procedural due process, substantive due process, [and] equal
protection rights,” among other things. (Doc. No. 1-1, Ex. B atp. 4,6 of 26.) Plaintiff also brings
a Monell claim. (Id. at p. 21 of 26.) Indeed, the Third Circuit’s recent decision in this matter
confirms this Court’s federal question jurisdiction. See In reMujaddid, No. 18-CV-3756,2019 WL
360052, at *1 (3d Cir. Jan. 29, 2019) (stating that Plaintiff alleged “causes of action under 42
U.S.C. §§ 1983,1985, and 1986 for the deprivation of his constitutional rights” as well as apparent
claims that Plaintiffs “procedural and substantive due process rights had been violated, and that
his arrest and criminal prosecution violated federal law”). i
Plaintiffs arguments in seeking remand fall flat. First, Plaintiff contends that the Court
lacks diversity jurisdiction and that the amount in controversy requirement in diversity cases is not
met. (Pl.’s Rep. Br. at 1). But such claims are of no moment because the removing Defendants
properly removed this matter based on this Court’s federal question jurisdiction.
Second, Plaintiff contends that remand is appropriate because Defendant Judge Dennis
Mclnemey did not consent to the removal. (Pl.’s Rep. Br. at 1.) Although the rule of unanimity
ordinarily requires all defendants to join in the removal petition, an exception arises “when a non­
resident defendant has not been served at the time the removing defendants file their petition.”
Lewis v. Rego Co., 757 F.2d 66,68 (3d Cir. 1985). In response to the Court’s Order to Show Cause
on this issue, the removing defendants certified that Judge Mclnemey was not properly served in

1 Insofar as Plaintiff asserts state law claims, they appear to arise from the same “common nucleus
of operative fact,” and are appropriate under this Court’s supplemental jurisdiction. See 28 U.S.C.
§ 1367; United Mine Workers ofAm. v. Gibbs, 383 U.S. 715, 725 (1966).
3

this case (Doc. No. 13), and thus need not join in the removal. Regardless, Plaintiff has waived
any challenge on this issue, as he did not object to this alleged defect within 30 days of removal.
See Green Tree Servicing LLC v. Dillard, 88 F. Supp. 3d 399,401 n.2 (D.N.J. 2015) (“A violation
of the rule of unanimity, however, constitutes a procedural defect subject to waiver if the plaintiff
fails to object within 30 days.”). This matter was removed on September 19, 2018; Plaintiff,
however, did not raise any rule of unanimity issue until he states that he discussed it with
Magistrate Judge Donio “during the Joint Discovery Plan,” on October 23, 2018. (Doc. No. 6.)
Nor did Plaintiff raise the alleged defect to this Court until Plaintiff filed his reply brief on October
29, 2018 in connection with his motion to remand. (Doc. No. 9.)
Third, Plaintiff contends that removal was not timely filed within 30 days after receipt of
service by email and mail. (Pl.’s Br. at 7; see also Pl.’s Rep. Br. at 1); 28 U.S.C. § 1446(b)(1). In
support of this contention, Plaintiff alleges that he served hard copies of the required papers by
mail to an individual named George Saponaro, whose website states that he is the Solicitor of
Westampton Township. (Pl.’s Br. at 6.) But aside from the fact that Plaintiff does not specify
when this alleged service occurred, the removing Defendants have certified that Mr. Saponaro is
not the Westampton Solicitor and has not represented the Township since 2015. (Def.’s Br. at Ex.
A.) Thus, Mr. Saponaro is not a proper party to receive service on the Township’s behalf.
In further support of his claim that removal was not timely, Plaintiff contends that an
uninterested party sent “hard copy and email service” to the New Jersey Division of Law on behalf
of several defendants. (Pl.’s Br. at 7.) According to the page in the record that Plaintiff cites in
making that assertion, the third party served those documents by mail on August 27, 2018. (Doc.
No. 1-1, Ex. C.) And according to the attachment to the removing defendants’ brief, the email to
Saponaro occurred on August 21, 2018. (Defs.’ Br. at Ex. B.) Even assuming that service on the

4

New Jersey Division of Law and email service to Saponaro was proper, the corresponding removal
on September 19,2019 still fell within 30 days of both dates. Thus, the removal was not untimely.
Finally, Plaintiff claims that removal is not proper because “this matter is not solely nor
generally an action brought under the Civil Rights Acts,” but instead, “the caption of the complaint
clearly provides that this is an Action in Lieu of Prerogative Writs” under state law. (Pl.’s Br. at
3-4.) But as the Third Circuit’s decision recently recognized, Plaintiff asserts violations of federal
law, and thus presents a matter removable based on this Court’s federal question jurisdiction.
III.

CONCLUSION
For the foregoing reasons, Plaintiffs motion to remand is DENIED. Plaintiffs additional

request that this Court vacate Judge Donio’s Order of September 19, 2018 setting an initial
conference for October 23, 2018 (Doc. No. 2) under Federal Rule of Civil Procedure 60 is
DENIED AS MOOT.

/s/ Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

Dated: 2/27/2019

5

Case l:18-cv-14021-RBK-AMD Document 33 Filed 04/01/19 Page 1 of 3 PagelD: 1099
APPENDIX 10

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE

El Aemer El MUJADDID,
Plaintiff,
v.

Civil No. 18-14021 (RBK/AMD)

Andrew BREWER, Josh ROWBOTTOM, et
al.

ORDER

Defendants.

THIS MATTER conies before the Court on its own motion in receipt of the Plaintiffs
Complaint (Doc. No. 1-1), and
IT APPEARING TO THE COURT Plaintiffs 285-paragraph single-spaced Complaint alleges
various state and constitutional claims arising out of a traffic violation. Plaintiff claims
Defendants “treated him differently than non-Moor or non-Muslim American persons accused of
a violation.” Id. Plaintiff then alleges various violations under the First, Fourth, Thirteenth, and
Fourteenth Amendments of the United States Constitution, and various federal and state statutes;
and
THE COURT NOTING that the Federal Rules of Civil Procedure require that a complaint
“shall contain ... a short and plaint statement of the claim showing that the pleader is entitled
to relief..Fed. R. Civ. P. 8(a). Such factual allegations in a proper complaint “must be
enough to raise a right to relief above the speculative level.” Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 555 (2007); and

Case l:18-cv-14021-RBK-AMD Document 33 Filed 04/01/19 Page 2 of 3 PagelD: 1100

THE COURT NOTING FURTHER that pro se complaints, while held to a less stringent
standard than those drawn by legal counsel, may be dismissed under rule 8(a). Tillio v. Spiess,
441 Fed.Appx. 109, 110 (3d Cir. Aug. 4,2011). Obviously, there must be a limit to the
indulgence of the law and the resultant imposition on the defendants in these suits, and
complaints have been dismissed under Rule 8(a) where they were found to be “a labyrinthian
prolixity of unrelated and vituperative charges that defied comprehension,” Prezzi v. Schelter,
469 F.2d 691 (2nd Cir. 1972); “a euphoric harassment of (the defendants)... (t)otally
obfuscated ... (i)mpossible for any party or court to understand plaintiffs alleged claim or
damage,” Koll v. Wayzata State Bank, 397 F.2d 124 (8th Cir. 1968); “confusing, ambiguous,
redundant, vague and, in some respects, unintelligible,” Wallach v. City ofPagedale, 359 F.2d
57 (8th Cir. 1966); and “so verbose, confused and redundant that its true substance, if any, is
well disguised,” Corcoran v. Yorty, 347 F.2d 222 (9th Cir. 1965); and
THE COURT FINDING that Plaintiffs Complaint alleges legal conclusions, devoid of
requisite factual support, and therefore fails to comply with the Federal Rules of Civil Procedure.
See Federal Rule 8(a)(2) (Plaintiff must provide “a short and plain statement of the claim
showing that the pleader is entitled to relief.”) The 285-paragraphs include long and meandering
legal conclusions and general and vague assertions. The font size and spacing also makes the
document generally difficult to follow. See L. Rule 7.2(b) (“Typeface shall be in 12-point non­
proportional font (such as Courier New 12) or an equivalent 14-point proportional font (such as
Times New Roman 14).”)
IT IS HEREBY ORDERED that the complaint is DISMISSED. Plaintiff has fourteen Q41
days to file a Motion to Amend the Complaint consistent with Rule 8 and this Order.

Case l:18-cv-14021-RBK-AMD Document 33 Filed 04/01/19 Page 3 of 3 PagelD: 1101

IT IS HEREBY ORDERED FURTHER that Plaintiffs Motion for Leave to File an Amended
Complaint is DISMISSED AS MOOT (Doc. Nos. 20 and 25). Plaintiffs Motion for
Preliminary Injunction is DISMISSED AS MOOT (Doc. No. 24). Plaintiffs Motion for
Sanctions (Doc. No. 32) is DISMISSED AS MOOT. Defendants’ Motion to Dismiss (Doc. No.
22) is DISMISSED AS MOOT. Defendants’ Motion for Extension of Time to File an Answer
(Doc. No 8) is DISMISSED AS MOOT.

Dated:

4/1/2019

s/ Robert B, Kugler
ROBERT B. KUGLER
United States District Judge

Case l:18-cv-14021-RBK-AMD Document 35 Filed 04/02/19 Page 1 of 3 PagelD: 1130
APPENDIX 11
[D.I. 14]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE

EL AEMER EL MUJADDID,

!
!
!

Plaintiff,

Civil No. 18-14021 (RBK/AMD)

!

v.

!
!
!
!
!
!
!
!

ANDREW BREWER, et al • /
Defendants.

ORDER
This matter comes before the Court by way of motion of
pro se Plaintiff El Aemer El Mujaddid (hereinafter, "Plaintiff")
for the appointment of pro bono counsel pursuant to 28 U.S.C. §
1915(e)(1).

(See Motion for Appointment of Counsel Pursuant to 28

U.S.C. § 1915(d)1 (hereinafter, "Pl.'s Mot.")

[D.I. 14], Feb. 21,

2019.) Defendants oppose the motion. (See Memorandum in Opposition
[D.I.

18], Mar.

1,

2019.)

The Court has considered Plaintiff's

submission and decides the matter pursuant to Federal Rule of Civil
Procedure 78(b).
"Indigent civil litigants possess neither a constitutional
nor a statutory right to appointed counsel." Montgomery v. Pinchak,

1 While Plaintiff cites to 28 U.S.C. § 1915(d), the Court notes that the
proper provision governing appointment of pro bono counsel for indigent
litigants is § 1915(e)(1).
1

Case l:18-cv-14021-RBK-AMD Document 35 Filed 04/02/19 Page 2 of 3 PagelD: 1131

294 F.3d 492, 498

(3d Cir. 2002). Indeed, under 28 U.S.C. § 1915,

Congress has only granted district courts the statutory authority
to "request" that attorneys represent an indigent individual in a
civil matter. Id.

(citing 28 U.S.C. § 1915(e)(1)). This grant is

interpreted as providing the courts with

w \

broad discretion'

to

determine whether appointment of counsel in a civil case would be
appropriate."
Cir.

Id.

(citing Tabron v.

cert, denied,

1993),

Grace,

510 U.S. 1196

6 F.3d 147,

153

(3d

(1994)). "As a threshold

matter, a court must assess" the merits of a plaintiff's case. Id.
at 498. If a court finds that there is sufficient and factual merit
to a claim, the court next turns to the factors set forth in Tabron
v.

Grace to

assess whether appointment

of pro bono counsel

is

warranted. Id. at 499.2
Here, the District Court dismissed Plaintiff's complaint
with leave to file a motion to amend the complaint.
[D.I.
this

33],
time,

merits

of

Apr.

1,

2019,

P-

2 on the docket.)

(See Order

Consequently,

a threshold determination cannot be made as
Plaintiff's

complaint,

and

the

Court

at

to the

will

deny

Plaintiff's motion (D.I. 14] without prejudice.

2 These factors include: (1) the movant's ability to present his or her
own case; (2) the difficulty or complexity of the legal issues involved
in the case; (3) the degree to which factual investigation will be
required and the ability of the indigent plaintiff to pursue such
investigation; (4) whether and to what extent the case is likely to turn
on credibility determinations; (5) whether expert testimony will be
required in presenting the case; and (6) whether the movant is able to
retain and afford counsel on his or her own behalf. Tabron, 6 F.3d at
156-157.
2

Case l:18-cv-14021-RBK-AMD Document 35 Filed 04/02/19 Page 3 of 3 PagelD: 1132

For the reasons set forth herein,

and for good cause

shown:
IT IS on this 2nd day of April 2019,
ORDERED that Plaintiff's motion for pro bono counsel
[D.I. 14] shall be, and is hereby, DENIED WITHOUT PREJUDICE.

s/ Ann Marie Donio
ANN MARIE DONIO
UNITED STATES MAGISTRATE JUDGE
cc: Hon. Robert B. Kugler

3

Case l:18-cv-14021-RBK-AMD Document 45 Filed 08/08/19 Page 1 of 3 PagelD: 1693
APPENDIX 12
[D.I. 37]

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE

Civil No. 18-14021 (RBK/AMD)

EL AEMER EL MUJADDID,
Plaintiff,
v.
ANDREW BREWER, et al.,
Defendants.
ORDER

This matter comes before the Court by way of motion of
pro se Plaintiff El Aemer El Mujaddid (hereinafter, "Plaintiff")
for the appointment of pro bono counsel pursuant to 28 U.S.C. §
1915(e)(1).

(See Motion to Appoint Pro Bono Counsel (hereinafter,

"PI.'s Mot.")
motion.

[D.I.

37],

Apr.

8,

2019.)

Defendants oppose the

(See Memorandum in Opposition [D.I. 38], Apr. 22, 2019.)

The Court has considered Plaintiff's submission and decides the
matter pursuant to Federal Rule of Civil Procedure 78 (b) .
On April
complaint

finding

1,

2019,

that

the

District

"Plaintiff's

Court

Complaint

dismissed the
alleges

legal

conclusions, devoid of requisite factual support, and therefore
fails to comply with the Federal Rules of Civil Procedure." (Order
[D.I. 33] .) In the same Order, the District Court granted Plaintiff

1

Case l:18-cv-14021-RBK-AMD Document 45 Filed 08/08/19 Page 2 of 3 PagelD: 1694

fourteen days to refile a motion to amend the complaint.
April 8, 2019, Plaintiff filed a motion to amend.

(Id.) On

(Mot. to Amend

[D.I. 36].) That motion is currently pending before the District
Judge.
civil

"Indigent
constitutional

nor

a

litigants

statutory

right

possess
to

neither

appointed

a

counsel."

Montgomery v. Pinchak, 294 F.3d 492, 498 (3d Cir. 2002). Indeed,
under 28 U.S.C. § 1915, Congress has only granted district courts
the statutory authority to "request" that attorneys represent an
indigent individual in a civil matter.
1915(e)(1)).
with

AX A

broad

Id.

(citing 28 U.S.C. §

This grant is interpreted as providing the courts
discretion'

to

determine

whether

counsel in a civil case would be appropriate." Id.

appointment

of

(citing Tabron

v. Grace, 6 F.3d 147, 153 (3d Cir. 1993), cert, denied, 510 U.S.
1196

(1994) ) .

"As a threshold matter,

a court must assess" the

merits of a plaintiff's case. Id. at 498. If a court finds that
there is sufficient and factual merit to a claim, the court next
turns to the factors set forth in Tabron v. Grace to assess whether
appointment of pro bono counsel is warranted. Id. at 499.1

1 These factors include: (1) the movant's ability to present his or her
own case; (2) the difficulty or complexity of the legal issues involved
in the case; (3) the degree to which factual investigation will be
required and the ability of the indigent plaintiff to pursue such
investigation; (4) whether and to what extent the case is likely to turn
on credibility determinations; (5) whether expert testimony will be
required in presenting the case; and (6) whether the movant is able to
retain and afford counsel on his or her own behalf. Tabron, 6 F.3d at
156-157.
2

Case l:18-cv-14021-RBK-AMD Document 45 Filed 08/08/19 Page 3 of 3 PagelD: 1695

The
counsel

[D.I.

Court
37]

shall

deny

Plaintiff's

without prejudice

motion

to

appoint

in light of the District

Court's dismissal order. As set forth in the Court's previous Order
addressing Plaintiff's motion for pro bono counsel [D.I. 14], "at
this time,

a threshold determination cannot be made as to the

merits of Plaintiff's

complaint[.]"

(Order

[D.I.

35],

Apr.

2,

2019.)
For the reasons set forth herein,

and for good cause

shown:
IT IS on this 8th day of August 2019,
ORDERED that Plaintiff's motion for pro bono counsel
[D.I. 37] shall be, and is hereby, DENIED WITHOUT PREJUDICE.
s/ Ann Marie Donio
ANN MARIE DONIO
UNITED STATES MAGISTRATE JUDGE
cc: Hon. Robert B. Kugler

3

Case l:18-cv-14021-RBK-AMD Document 48 Filed 09/06/19 Page 1 of 2 PagelD: 1802

APPENDIX 13
[D.I.

47]

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE

EL AEMER EL MUJADDID,
Plaintiff,

!

Civil No. 18-14021 (RBK/AMD)

!
!
!

v.
ANDREW BREWER, et al. ,
Defendants.

i
i
i
i
i
i
i
ORDER

This matter comes before the Court by way of motion [D.I.
47] seeking relief from "8/8/2019 Order Denying Pro Bono Counsel
and from heightened pleading standard applied to civil rights
claims pursuant to Rule 60 (B) and the Inherent Authority of the
Court; and Motion For Appointment Of Counsel[.]" (Pl.'s Mot. [D.I.
47], Sept. 3, 2019.) The Court construes this motion as a motion
for reconsideration of the Court's Order of August 8, 2019 [D.I.
45] . As set forth in the Court's Order of August 8,

2019,

the

District Court dismissed Plaintiff's complaint on April 1, 2019.
(Order

[D.I.

45]

(citing

Order

[D.I.

33],

Apr.

1,

2019.))

Subsequently, Plaintiff filed a motion to amend on April 8, 2019,
[D.I. 36], which is currently pending before the District Court.
Consequently,

at this time,

in light of the District Court's

Case l:18-cv-14021-RBK-AMD Document 48 Filed 09/06/19 Page 2 of 2 PagelD: 1803

dismissal Order and the pending motion to amend, the Court cannot
address any application for pro bono counsel.
basis

for

reconsideration.1

Consequently,

Thus,
the

there is no

Court

having

considered the matter pursuant to Federal Rule of Civil Procedure
78(b), for the reasons set forth herein, and for good cause shown:
IT IS on this 5th day of September 2019,
ORDERED

that

Plaintiff's

motion

for

reconsideration

[D.I. 47] shall be, and is hereby, DENIED WITHOUT PREJUDICE.

s/ Ann Marie Donio
ANN MARIE DONIO
UNITED STATES MAGISTRATE JUDGE

cc: Hon. Robert B. Kugler

1 Moreover,
Local
Civil Rule 7.1 requires that a motion for
reconsideration "be served and filed within 14 days of entry of the order
or judgment on the original motion by the . . . Magistrate Judge." L.
Cxv. R. 7.1(i). Rule 7.1 also provides that a party moving for
reconsideration must set forth "concisely the matter or controlling
decisions which the party believes" the Court "overlooked" in its prior
decision. Id. "[A] party seeking reconsideration must satisfy a high
burden, and must rely on one of three grounds: (1) an intervening change
in controlling law; (2) the availability of new evidence not available
previously; or (3) the need to correct a clear error of law or prevent
manifest injustice." Tucker v. Hewlett-Packard, Inc • t No. 14-4699, 2017
WL 9362563, at *1 (D.N.J. Dec. 5, 2017) (citation omitted). Plaintiff
does not assert that there has been an intervening change in controlling
law, that new evidence is available that was not available previously,
nor that there is a need to correct a clear error of law or prevent
manifest injustice. Further, the Court finds no basis to support
reconsideration.

Case l:19-cv-17596-RBK-AMD Document 4 Filed 09/20/19 Page 1 of 2 PagelD: 255
APPENDIX 14

NOT FOR PUBLICATION
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
NEW JERSEY,
Plaintiff,

Civil No. 19-17596 (RBK/AMD)

v.
ORDER
El Aemer EL MUJADDID,
Defendant.
KUGLER, United States District Judge:
THIS MATTER having come before the Court on Defendant El Aemer El Mujaddid’s
September 3,2019 Notice of Removal (Doc. No. 1), petitioning to remove a criminal case pending
in the Gloucester City Municipal Court under Ticket No. El 8-002499 pursuant to 28 U.S.C. §
1443(1) (id. at Iff 1,46-47); and
THE COURT NOTING that 28 U.S.C. § 1443(1) permits the removal of state court
criminal prosecutions to federal district court when the prosecution is pending “[ajgainst any
person who is denied or cannot enforce in the courts of such State a right under any law providing
for the equal civil rights of the United States, or of all persons within the jurisdiction thereof;” and
THE COURT NOTING that “the filing of a notice of removal of a criminal prosecution
shall not prevent the State court in which such prosecution is pending from proceeding further,”
28 U.S.C. § 1455(b)(3); and
THE COURT NOTING that “[t]he United Stated district court in which such notice is
filed shall examine the notice promptly. If it clearly appears on the face of the notice and any

Case l:19-cv-17596-RBK-AMD Document 4 Filed 09/20/19 Page 2 of 2 PagelD: 256

exhibits annexed thereto that removal should not be permitted, the court shall make an order for
summary remand,” 28 U.S.C. § 1455(b)(4); and
THE COURT NOTING that on September 3, 2019, this criminal prosecution was
dismissed in the Gloucester Municipal Court at the discretion of the prosecution (Doc. No. 3);
THE COURT FINDING that as the criminal prosecution Defendant seeks to remove to
this Court has been dismissed, it is not “pending” as required by 28 U.S.C. § 1443(1); and
THE COURT FINDING that as the requirements of 28 U.S.C. § 1443(1) are not met, the
Court must remand this case in compliance with 28 U.S.C. § 1455(b)(4); and
IT IS HEREBY ORDERED that Defendant’s petition for removal of the State criminal
case, pursuant to 28 U.S.C. § 1443(1) is DENIED; that this case is REMANDED to the Gloucester
City Municipal Court, Ticket No. El 8-002499; and that the Clerk of Court shall close this case.

Dated: 09/20/2019

/s/ Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

Case l:19-cv-17596-RBK-AMD Document 7 Filed 10/16/19 Page 1 of 2 PagelD: 268

NOT FOR PUBLICATION
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE

STATE OF NEW JERSEY,
Civil No. 19-17596 (RBK/AMD)

Plaintiff,

ORDER

v.

EL AEMER EL MUJADDID,
Defendant.
KUGLER, United States District Judge:
THIS MATTER having come before the Court on Defendant El Aemer El Mujaddid’s
Application to Proceed In Forma Pauperis on Appeal (Doc. No. 6); and
THE COURT NOTING that when deciding applications to proceed in forma pauperis
(“IFP”), the Court must evaluate the litigant’s financial status and determine whether he or she is
eligible to proceed IFP, see Roman v. Jeffes, 904 F.2d 192, 194 n.l (3d Cir. 1990); and
THE COURT NOTING that Defendant’s application is insufficient to evaluate his
financial status with any certainty because it does not contain any reasonably precise statement of
his income or of his assets; and
THE COURT NOTING that the Clerk’s Office provides pro se litigants with a form to
use when applying to proceed IFP, which when accurately completed supplies the Court with
sufficient information to ascertain whether the litigant is eligible to proceed IFP; and
THE

COURT

NOTING

that

this

https://www.njd.uscourts.gov/sites/njd/files/ProSePacket.pdf;

form

is

available

at

Case l:19-cv-17596-RBK-AMD Document 7 Filed 10/16/19 Page 2 of 2 PagelD: 269

IT IS HERBY ORDERED that Defendant’s Application (Doc. No. 6) is DENIED
without prejudice; Defendant may reapply to proceed IFP using the form described above.

Dated: 10/16/2019

s/ Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

Case l:18-cv-14021-RBK-AMD Document 50 Filed 10/04/19 Page 1 of 2 PagelD: 1808
APPENDIX 15

NOT FOR PUBLICATION
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
EL AEMER EL MUJADDID,
Plaintiff,

Civil No. 18-14021 (RBK/AMD)
ORDER

v.

ANDREW BREWER, JOSH ROWBOTTOM,
etal.,
Defendants.
KUGLER, United States District Judge:
TIHS MATTER having come before the Court on Plaintiffs motion (Doc. 36) to amend
his Complaint; and
THE COURT OBSERVING that, after several attempted amendments, Plaintiffs
original Complaint (Doc. 1-1) was dismissed by this Court’s April 1, 2019 Order (Doc. 33) for
failing to contain a “short and plain statement of the claim showing that the pleader is entitled to
relief’ in accordance with Fed. R. Civ. P. 8; and
THE COURT FURTHER OBSERVING that Plaintiffs newest proposed amendments
to his Complaint include: adding new Defendants Donna Flourish, William J. Golden, and Victor
Bialous; changing a citation; removing Defendant Mclnemey; and adding a new constitutional
violation stemming from suspension of his driver’s license; and
IT APPEARING TO THE COURT that Plaintiffs proposed amended Complaint
contains 67 pages and 163 lengthy paragraphs, which seem to allege that a traffic citation for

Case l:18-cv-14021-RBK-AMD Document 50 Filed 10/04/19 Page 2 of 2 PagelD: 1809

careless driving has resulted in violations of the First, Fourth, Thirteenth, and Fourteenth
Amendments of the United States Constitution, as well as various federal and state statutes; and
THE COURT OBSERVING that despite Plaintiffs inclusion of a fact section in his
proposed amended Complaint, the numerous allegations throughout his proposed amended
Complaint appear in the form of legal conclusions without requisite factual support;1 and
THE COURT NOTING that Fed. R. Civ. P. 8(a) demands that factual allegations “be
enough to raise a right to relief above the speculative level,” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007); and
THE COURT FURTHER NOTING that pro se complaints, while held to a less stringent
standard than those drafted by legal counsel, may be dismissed under rule 8(a), Tillio v. Spiess,
441 Fed.Appx. 109, 110 (3d Cir. Aug. 4, 2011), particularly where, as here, a complaint is
“confusing, ambiguous, redundant, vague and, in some respects, unintelligible,” Wallach v. City
ofPagedale, 359 F.2d 57 (8th Cir. 1966); and
THE COURT FINDING that none of Plaintiff s proposed amendments cure the Fed. R.
Civ. P. 8 deficiencies addressed in the April 2019 Order;
IT IS HEREBY ORDERED that Plaintiffs motion to amend is DENIED.

Dated: 10/4/2019

s/ Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

1 For example, Plaintiff claims that Defendants “fabricated evidence” and “used the threat of prosecution for the
purpose of extortion” (19), “conspired to frame him for careless driving in a conspiracy to deny him equal protection
under the law because he is a Moor” (110), engaged in a “Jim Crow revenue scheme to gain a [ ] $200.00 debt” (110),
and states that Defendants “distorted the even-handed pursuit of justice” (111), all without requisite factual support.

Case l:18-cv-14021-RBK-AMD Document 36-3 Filed 04/08/19 Page 1 of 2 PagelD: 1143
APPENDIX 16

PLAINTIFFS
EXHIBIT “A”

Case l:18-cv-14021-RBK-AMD Document 36-3 Filed 04/08/19 Page 2 of 2 PagelD: 1144

APPENDIX 16

1
Form 13
€ORQER FHOMjMmc>paf Record Scivtec (son) 59ft 2441

Subpoena to Testify

I

,
MUNICIPAL COURT 0 F
CiWestampton QEastampton □Hainesport
Telephone: (609) 267-1895
Stale ol New Jersey to:
Name-

giA ci-n^M',4

$5 /'Tofcfa/,aL I
t>*cC /u7
Home Telephone _
315- m Ch
Street

City-State _____

Busirass Telephone______________________
You are commanded to appear In the above court at
710 Rancocas Hoad, Westamplon, NJ 080S0
in Burlington County, New Jersey, on
The -LL— —Elay ol „
at
in the case of Slale vs.

£!T't M 1 v, r / f 1-

f

______ 20 if, .

lo testify on behalf ol the Slate

3

CAiXtrjc A-LAiCc- fc>\j

(Complaint No. t I • ? V
1. You are commanded
lo appear without prepayment ol witness fee. For failure
to obey this subpoena you may be held in criminal con­
tempt and a warrant may ba Issued lor your arrest.
I issued Die subpoena and served Ihe same upon the
above named witness on
Signaim/and lifenlifcsltoi aI Otlxer
NOTE: PLEASE CONTACTTHE COURT PRIOR TO YOUR SCHEDULED
DATE TO CONFIRM YOUR COURT APPEARANCE (603) 267-1835.
WUntts Co Ft -ft** (Wliie)r Court Copy •Soconrt O’c^tv)/Ofliwi't Copy -Ti*a (C#3)

Case: 18-3756

Document: 003113146103

Page: 1

Date Filed: 01/29/2019

APPENDIX A1

ALD-077
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-3756
IN RE: EL AEMER EL MUJADDID,
Petitioner
On a Petition for Writ of Mandamus from the
United States District Court for the District of New Jersey
(Related to D.N.J. Civ. No. 18-cv-14021)
Submitted Pursuant to Rule 21, Fed. R. App. P.
January 17, 2019
Before: MCKEE, SHWARTZ and BIBAS, Circuit Judges

JUDGMENT
This cause came to be considered on a petition for writ of mandamus submitted on
January 17, 2019. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the petition for writ of mandamus
be, and the same is, denied. All of the above in accordance with the opinion of the Court.
ATTEST:
/O

DATED: January 29, 2019

s/ Patricia S. Dodszuweit
Clerk

,»**».

4V

:1

a
v/■

%\

S-

i

/v?

A True Copy:

t,UL,<==4• &
Patricia S. Dodszuweit, Clerk

NOT PRECEDENTIAL

ALD-077

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-3756
IN RE: EL AEMER EL MUJADDID,
Petitioner
On a Petition for Writ of Mandamus from the
United States District Court for the District of New Jersey
(Related to D.NJ. Civ. No. 18-cv-14021)
Submitted Pursuant to Rule 21, Fed. R. App. P.
January 17,2019
Before: MCKEE, SHWARTZ and BIBAS, Circuit Judges
(Opinion filed: January 29, 2019)
OPINION*
PER CURIAM
On July 12, 2018, petitioner El Aemer El Mujaddid filed a complaint in the
Superior Court of New Jersey, Law Division, Burlington County, against numerous
defendants relating to a traffic citation he had received. Mujaddid alleged, inter alia,
causes of action under 42 U.S.C. §§ 1983, 1985, and 1986 for the deprivation of his

* This disposition is not an opinion of the foil Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

constitutional rights. It appears that Mujaddid claimed his procedural and substantive
due process rights had been violated, and that his arrest and criminal prosecution violated
federal law. The matter was transferred to the Law Division, Camden County, in July
2018, and an amended complaint was filed on August 1,2018. The named defendants
thereafter removed the case to federal court the following month pursuant to 28 U.S.C. §
1441, on the basis of the District Court’s original jurisdiction under 28 U.S.C. §§ 1331
and 1343(a)(3).
Mujaddid opposes the removal and filed a motion in the District Court on October
15, 2018, seeking to have the matter remanded to the Superior Court of New Jersey, Law
Division, Camden County. An initial scheduling conference was held on October 23,
2018, before the Magistrate Judge to whom the matter was referred. While the
defendants filed a statement of material facts in response to Mujaddid’s remand motion
on October 24,2018, they sought an extension of time to file an answer or otherwise
plead on October 26, 2018. Mujaddid filed a response in opposition to the defendants’
motion. A telephone status conference was conducted by the Magistrate Judge on
November 28,2018. There does not appear to have been any further action in the case
since that time.
Approximately three weeks after the status conference, Mujaddid filed the instant
petition for writ of mandamus and prohibition seeking to compel the District Court to
remand the matter to state court, to prohibit it from “proceeding” any further, and to
2

impose sanctions on the defendants and defense counsel. Additionally, Mujaddid seeks
an award of monetary damages from the assigned District Court Judge and Magistrate
Judge “under the Bivens doctrine” for what he claims are injuries suffered as a result of
various violations of his constitutional rights as a result of the manner in which District
Court Judge and Magistrate Judge have handled the removal action. See Pet. at 3-4. For
the reasons that follow, we will deny the petition.
While Mujaddid characterizes his filing as both a petition for a writ of mandamus
and prohibition, the same standard applies regardless of how the petition is viewed. See
United States v. Santtini. 963 F.2d 585, 593-94 (3d Cir. 1992) (noting that the
requirements are the same for obtaining either writ); In re Sch. Asbestos Litig.. 921 F.2d
1310, 1313 (3d Cir. 1990) (explaining that “the form is less important than the
substantive question of whether an extraordinary remedy is available”) (internal
quotations omitted).1 Mandamus is a drastic remedy that is granted only in extraordinary
cases. In re Diet Drugs Prods. Liab. Litig., 418 F.3d 372, 378 (3d Cir. 2005). Generally,
mandamus is a “means ‘to confine an inferior court to a lawful exercise of its prescribed
jurisdiction or to compel it to exercise its authority when it is its duty to do so.’” United
States v. Christian. 660 F.2d 892, 893 (3d Cir. 1981) (quoting Roche v. Evaporated Milk
Ass’n, 319 U.S. 21, 26 (1943)). To demonstrate that mandamus is appropriate, a

1 We have explained that “a writ of mandamus may appear more appropriate when the
request is for an order mandating action, and a writ of prohibition may be more accurate
when the request is to prohibit action[.]” In re Sch. Asbestos Litig.. 921 F.2d at 1313.
3

petitioner must establish that he has “no other adequate means” to obtain the relief
requested, and that he has a “clear and indisputable” right to issuance of the writ.
Madden v. Myers, 102 F.3d 74, 79 (3d Cir. 1996).
Although Mujaddid’s petition is far from a model of clarity , it is clear that he has
no “indisputable” right to issuance of a writ compelling the District Court to remand the
matter to state court. As set forth in 28 U.S.C. § 1441, the district courts are tasked with
determining, in the first instance, whether an action was properly removed. Additionally,
this Court’s jurisdiction over District Court orders remanding removed cases to state
court is constrained by 28 U.S.C. § 1447(d). In the instant case, moreover, the District
Court has not yet entered an order on Mujaddid’s remand motion. Even if we were to
liberally construe Mujaddid’s petition as challenging the delay he has experienced in
having his remand motion disposed of, we would conclude that mandamus relief is not
warranted.
Although a District Court has discretion over the management of its docket, see In
re Fine Paper Antitrust Litig., 685 F.2d 810, 817-18 (3d Cir. 1982), a federal appellate
court “may issue a writ of mandamus on the ground that [the District Court’s] undue
delay is tantamount to a failure to exercise jurisdiction.” Madden. 102 F.3d at 79. The
defendants responded to Mujaddid’s remand motion at the end of October 2018, and the
Magistrate Judge conducted a status conference in November 2018. Thus, little more
than two to three months have lapsed since the motion has been ripe for disposition. We
4

